APPENDIX TABLE OF CONTENTS
Order and Judgment of the Tenth Circuit
(May 6, 2019) ...................................................... 1a
Memorandum Opinion and Order of the District
Court of New Mexico (May 8, 2018)................. 13a
Complaint for Employment Discrimination and
Retaliation (September 12, 2016) .................... 61a

App.1a
ORDER AND JUDGMENT
OF THE TENTH CIRCUIT
(MAY 6, 2019)
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
________________________
JAGDISH C. LAUL,

Plaintiff-Appellant,
v.
LOS ALAMOS NATIONAL LABORATORIES,

Defendant-Appellee.

________________________
No. 18-2084

(D.C. No. 1:16-CV-01017-JAP-KBM) (D. N.M.)
Before: HARTZ, MATHESON, and
CARSON, Circuit Judges.
Jagdish C. Laul appeals from the district court’s
grant of summary judgment in favor of Los Alamos
 After examining the briefs and appellate record, this panel has
determined unanimously to honor the parties’ request for a decision on the briefs without oral argument. See Fed. R. App. P. 34(f);
10th Cir. R. 34.1(G). The case is therefore submitted without
oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and
collateral estoppel. It may be cited, however, for its persuasive
value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App.2a
National Laboratories (“LANL”)1 on his claims alleging
discriminatory failure to rehire him based on his age
and/or national origin, and retaliatory failure to rehire
him based on his previous complaints of discrimination. Exercising jurisdiction under 28 U.S.C. § 1291,
we affirm.
I. Background
Mr. Laul is a naturalized U.S. citizen from India.
In 1999, when Mr. Laul was 60 years old, LANL hired
him as a Safety Basis Analyst. Initially, Mr. Laul’s
job performance was satisfactory and he was even promoted. Beginning in 2007, however, his performance
steadily declined. In October 2013, his supervisor
recommended to James Tingey, a Safety Basis Division
Leader, to terminate Mr. Laul’s employment. Mr.
Tingey accepted the recommendation and issued a
notice of intent to terminate. Following an unsuccessful
internal LANL appeal, Mr. Laul’s employment was
terminated, effective December 6, 2013. See Laul v.
Los Alamos Nat’l Labs., 714 F. App’x 832, 834-35 (10th
Cir. 2017) (detailing Mr. Laul’s internal appeal and
job performance problems, including his unprofessional,
disrespectful, and disruptive workplace behavior),
cert. denied, 138 S. Ct. 2602 (2018).
In early January 2014, Richard Marquez, the
Executive Director of LANL, told Mr. Laul he could
apply for jobs despite having been discharged. Sometime
later, Mr. Laul went to LANL’s Occupational Medical
building and asked to speak with Janet McMillan, a
nurse and the wife of LANL’s Director, Charles Mc1 LANL’s name has been changed to Los Alamos National Security,
LLC.

App.3a
Millan. Mr. Laul showed Ms. McMillan a picture of
himself and the McMillans at a recent holiday event
and then asked to speak with her privately. Mr. Laul
followed Ms. McMillan into her office and shut the
door behind him. He then tried to hand Ms. McMillan
an envelope containing documents related to his
termination that he wanted delivered to her husband.
When Ms. McMillan refused the envelope, Mr. Laul
became increasingly angry. Ms. McMillan later reported
the incident to her supervisor.
On September 11, 2014, Mr. Laul filed a charge
of discrimination related to his termination with the
New Mexico Department of Labor, Human Rights
Division. He filed an amended charge on October 30.
Between October 20, 2014, and May 4, 2015, Mr.
Laul applied for 30 jobs at LANL. Eleven of the job
postings were cancelled and are not at issue. As to
the remaining 19 jobs, Mr. Laul was not hired for
any of them. All of the people hired were younger
than Mr. Laul, who was then in his mid-70s, and none
were of East Indian origin.
For two job openings as a Safety Basis Analyst,
Mr. Tingey, the manager who approved Mr. Laul’s
termination in October 2013, was the hiring manager.
He determined that Mr. Laul did not meet the minimum job requirements for a Safety Basis Analyst
because he had recently failed at the same job.
Barbara Pacheco, a Human Resources employee,
reviewed and screened the applications for an Operations Manager job. She was aware of Mr. Laul’s previous performance issues and his discrimination complaints. Ms. Pacheco said that she did not select Mr.

App.4a
Laul for an interview because he did not have the
necessary management experience.
Both Mr. Tingey and Ms. Pacheco said they did
not consider Mr. Laul’s age, race, national origin, or
previous complaint of discrimination in making their
decisions.
The hiring managers for the remaining 16 jobs
did not know that Mr. Laul had been terminated or
that he had filed discrimination charges against LANL.
Nor did they consider Mr. Laul’s age, race, or national
origin in making their decisions. Instead, they decided
not to interview Mr. Laul because he either lacked
the minimum qualifications or was not the best
qualified applicant.
In June 2015, Mr. Laul returned to the Occupational Medical building and again asked to see Ms.
McMillan. This time, Ms. McMillan met with Mr.
Laul in the lobby. Mr. Laul again tried to give her
the documents for delivery to her husband. When Ms.
McMillan refused, Mr. Laul became so aggressive that
he drew the attention of a physician assistant, who
told him to leave. Ms. McMillan reported the incident
to Mr. Marquez, who in turn informed Michael Lansing,
the Acting Associate Director for Operations and
Business. On July 1, Mr. Lansing and LANL Personnel
Security issued a “Be On The Lookout” (“BOLO”) for
Mr. Laul. LANL uses a BOLO to alert personnel that
the BOLO subject is not permitted on the property
and should be reported to security if he attempts to
enter or is seen on the premises.
In August 2015, Mr. Laul filed his first suit against
LANL for discriminatory discharge, failure to hire,
and retaliation. In September 2016, while LANL’s

App.5a
motion for summary judgment was pending in the
first suit,2 Mr. Laul filed a second suit in which he
asserted that LANL failed to rehire him based on his
age and national origin in violation of the Age Discrimination in Employment Act (“ADEA”), 29 U.S.C. § 623
(a)(1), (“ADEA”); Title VII of the Civil Rights Act of
1964, 42 U.S.C. § 2000e-2(a)(1); and the New Mexico
Human Right Act (“NMHRA”), N.M. Stat. Ann. § 281-7. He also claimed that LANL failed to rehire him
in retaliation for his previous charge of discrimination in violation of Title VII and the NMHRA. The
district court granted summary judgment in favor of
LANL, and this appeal followed.
II. Standard of Review
“We review summary judgment determinations de
novo, applying the same standard as the district court.
At this stage of the litigation, we view facts in the
light most favorable to the non-moving party and draw
all reasonable inferences in [his] favor.” DeWitt v.
Sw. Bell Tel. Co., 845 F.3d 1299, 1306 (10th Cir. 2017)
(citations, ellipses, brackets and internal quotation
marks omitted). “Even so, the non-movant . . . must
marshall sufficient evidence requiring submission to
the jury to avoid summary judgment.” Id. (brackets
and internal quotation marks omitted).
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). “A fact
2 The district court granted summary judgment in favor of LANL,
and this court affirmed on appeal. See Laul, 714 F. App’x at 834,
841.

App.6a
is material if, under the governing law, it could have
an effect on the outcome of the lawsuit. A dispute
over a material fact is genuine if a rational jury could
find in favor of the nonmoving party on the evidence
presented.” DeWitt, 845 F.3d at 1306. (internal quotation marks omitted).
III. Analysis
A.

Age and National Origin Discrimination

The district court addressed Mr. Laul’s claims
for age and national origin discrimination together
because he used the same evidence to support both
claims. We do the same.
1. Legal Background
“Where, as here, an employee’s [Title VII] or
[ADEA] claim relies exclusively on circumstantial,
rather than direct, evidence, we apply the burden shifting scheme of McDonnell Douglas Corp. v. Green,
411 U.S. 792, 802-04 (1973).” Timmerman v. U.S. Bank,
N.A., 483 F.3d 1106, 1113 (10th Cir. 2007). The
McDonnell-Douglas burden-shifting analysis also
applies to claims under the NMHRA. See Juneau v.
Intel Corp., 127 P.3d 548, 551 (N.M. 2005) (“When
considering a violation of the NMHRA,” the New Mexico
Supreme Court “has used the [McDonnell Douglas]
methodology”).3

3 For the first time on appeal, Mr. Laul argues that the district
court “erred in applying federal standards to [his] claims under
the [NMHRA].” Aplt. Opening Br. at 46. Setting aside the fact
that we generally do not consider arguments raised for the first
time on appeal, Mr. Laul does not say what standard the dis-

App.7a
Under McDonnell Douglas, Mr. Laul has the
burden to establish a prima facie case of failure to
hire based on his age and/or national origin. He “must
show that (1) he applied for an available position; (2)
he was qualified for the position; and (3) he was rejected
under circumstances which give rise to an inference
of unlawful discrimination.” Anaeme v. Diagnostek,
Inc., 164 F.3d 1275, 1278 (10th Cir. 1999) (internal quotation marks omitted). If Mr. Laul carries his burden,
LANL must then come forward with a legitimate,
non-discriminatory reason for its failure to hire him.
If LANL makes this showing, the burden shifts back
to Mr. Laul to show that LANL’s proffered justification is pretextual. See Timmerman, 483 F.3d at 1113.
“Under our precedents, a plaintiff can establish
pretext by showing the defendant’s proffered non-discriminatory explanations for its actions are so incoherent, weak, inconsistent, or contradictory that a rational
factfinder could conclude they are unworthy of belief.”
Johnson v. Weld Cty., 594 F.3d 1202, 1211 (10th Cir.
2010) (brackets and internal quotation marks omitted).
“[O]ur role isn’t to ask whether the employer’s decision
was wise, fair or correct, but whether it honestly
believed the legitimate, nondiscriminatory reasons it
gave for its conduct and acted in good faith on those
beliefs.” Id. (brackets and internal quotation marks
omitted).
2. Analysis
For purposes of this appeal, we assume that Mr.
Laul could establish a prima facie case of discriminatrict court should have applied to these claims. In any event,
the court applied the correct standard.

App.8a
tion. The parties do not dispute that LANL articulated
a legitimate, nondiscriminatory reason for its decisions
not to rehire Mr. Laul. Thus, the issue is whether
Mr. Laul established pretext. We agree with the district court that he failed to do so.
Mr. Laul argues that LANL’s hiring managers
did not honestly believe his qualifications were lacking
or believe there were better qualified candidates. He
contends the managers manufactured these reasons and
argues his age and/or national origin was the real
reason he was not rehired. But it is not enough for Mr.
Laul to assert his belief that he was better qualified
than the other applicants. “[T]o suggest that an
employer’s claim that it hired someone else because
of superior qualifications is pretext for discrimination
rather than an honestly (even if mistakenly) held
belief, a plaintiff must come forward with an overwhelming disparity in qualifications.” Id. (internal
quotation marks omitted). See also Jaramillo v. Colo.
Judicial Dep’t, 427 F.3d 1303, 1309 (10th Cir. 2005)
(per curiam); Bullington v. United Air Lines, Inc., 186
F.3d 1301, 1319 (10th Cir. 1999), overruled on other
grounds, Nat’l R.R. Passenger Corp. v Morgan, 536 U.S.
101 (2002).
Mr. Laul presents a few examples to allege that
a hiring manager improperly considered his resume,
education, or experience. But “[t]o support an inference
of pretext, to suggest that something more nefarious
might be at play, a plaintiff must produce evidence
that the employer did more than get it wrong.” Id.
(emphasis added). “He . . . must come forward with
evidence that the employer didn’t really believe its
proffered reasons for action and thus may have been
pursuing a hidden discriminatory agenda.” Id.

App.9a
We also reject Mr. Laul’s attempt to prove pretext
by the sheer number of jobs he applied for but failed
to get an interview. To prove pretext on the theory he
was better qualified than the other candidates, Mr.
Laul must proffer evidence of an “overwhelming disparity” between his qualifications and those of the
successful candidate, which necessarily involves an
individualized consideration of the particular candidates
for a particular job. He has failed to do so.
B.

Retaliation
1. Legal Background

A claim of Title VII retaliation can be proven
with direct evidence or by reliance on the McDonnell
Douglas framework. See Khalik v. United Air Lines,
671 F.3d 1188, 1192 (10th Cir. 2012). Under the latter,
a plaintiff must first “raise a genuine issue of material
fact on each element of the prima facie case.” Morgan
v. Hilti, Inc., 108 F.3d 1319, 1323 (10th Cir. 1997)
(citation omitted). The burden then “shifts to the
employer to offer a legitimate nondiscriminatory reason
for its employment decision.” Id. If the employer meets
its burden, “the burden then reverts to the plaintiff
to show that there is a genuine dispute of material
fact as to whether the employer’s proffered reason for
the challenged action is pretextual—i.e., unworthy of
belief.” Id. (internal quotation marks omitted).
To establish a prima facie case of Title VII retaliation, Mr. Laul “must show (1) that [he] engaged in
protected opposition to discrimination, (2) that a reasonable employee would have found the challenged
action materially adverse, and (3) that a causal connection existed between the protected activity and

App.10a
the materially adverse action.” Khalik, 671 F.3d at
1193 (internal quotation marks omitted). To establish
a causal connection, a plaintiff “must present evidence
of circumstances that justify an inference of retaliatory
motive.” Ward v. Jewell, 772 F.3d 1199, 1203 (10th Cir.
2014) (internal quotation marks omitted).
2. Analysis
The district court found that Mr. Laul established
the first two elements of a prima facie case but failed
to establish the third element—a causal connection
between his last protected activity and the decision
not to rehire him. We agree.
The hiring managers for 16 of the 19 jobs had no
knowledge that Mr. Laul had filed charges of discrimination against LANL. As such, there is no evidence of
any circumstances that would justify an inference of
a retaliatory motive. See Kendrick v. Penske Transp.
Servs., Inc., 220 F.3d 1220, 1234-35 (10th Cir. 2000)
(affirming dismissal of retaliation claim on summary
judgment where plaintiff presented no evidence that
decisionmaker knew of plaintiff’s protected activity
at time decision was made).
Mr. Laul argues that the district court made an
improper credibility determination on summary judgment because it “believed [LANL’s] evidence that the
hiring managers other than Mr. Tingey and Ms.
Pacheco did not have knowledge of [his] complaints
of discrimination.” Aplt. Opening Br. at 55. The court,
however, did not make a credibility determination. It
determined that Mr. Laul failed to present evidence
sufficient to create a genuine issue of material fact as
to whether his protected activity caused the hiring
decisions. Mr. Laul merely speculated that the hiring

App.11a
managers reviewed his personnel file, which contained
information about his discrimination charges. But to
“defeat a motion for summary judgment, evidence,
including testimony, must be based on more than mere
speculation, conjecture, or surmise.” Bones v. Honeywell
Int’l, Inc., 366 F.3d 869, 875 (10th Cir. 2004).
Mr. Tingey and Ms. Pacheco knew about Mr. Laul’s
charges of discrimination but decided not to hire him.
But this occurred in April 2015, nearly six months
after his last protected activity in October 2014,
when he filed the amended charges with the state
agency. This gap between the protected activity and
the adverse action was too long to support an inference
of causation. “[W]here a gap of three months or longer
has occurred, a plaintiff must present other evidence—
more than mere speculation, conjecture, or surmise—
to establish that [his] protected activity was a but-for
cause of the adverse employment action. Bekkem v.
Wilkie, 915 F.3d 1258, 1271 (10th Cir. 2019) (internal
quotation marks omitted).
Finally, in opposing summary judgment, Mr. Laul
argued that LANL “further retaliated against [him]
to ensure that he cannot secure a position at LANL
by issuing a BOLO against [him].” Aplt. App., Vol. 3
at 742. Even if we assume Mr. Laul was engaged in
protected activity when he confronted Ms. McMillan,
we agree with the district court that “the evidence
clearly shows that the BOLO was issued because of
the inappropriate and threatening nature of Plaintiff’s
conduct in his encounters with Ms. McMillan”—not
because of a discriminatory or retaliatory motive. Id.,
Vol. 6 at 870. Mr. Laul failed to present any “evidence
that members of the security department, who issued
the BOLO, knew about Plaintiff’s prior complaints of

App.12a
discrimination.” Id. As such, he could not show that
protected activity caused issuance of the BOLO.
IV. Conclusion
We affirm the judgment of the district court.
Entered for the Court
Scott M. Matheson, Jr.
Circuit Judge

App.13a
MEMORANDUM OPINION AND ORDER OF THE
DISTRICT COURT OF NEW MEXICO
(MAY 8, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF NEW MEXICO
________________________
JAGDISH C. LAUL,

Plaintiff,
v.
LOS ALAMOS NATIONAL LABORATORIES,

Defendant.
________________________
No. 16 CV 1017 JAP/KBM
Before: James A. PARKER,
Senior United States District Judge.
In DEFENDANT LOS ALAMOS NATIONAL
SECURITY, LLC’S MOTION AND MEMORANDUM
IN SUPPORT OF MOTION FOR SUMMARY JUDGMENT (Doc. No. 58) (Motion), Los Alamos National
Security (LANS)1 asks the Court to dismiss all of
Plaintiff’s claims for alleged violations of the New
Mexico Human Rights Act (NMSA 1978 § 28-1-1 et seq.)
1 Although originally named Los Alamos National Laboratories,
the Defendant’s name has been changed to Los Alamos National
Security, LLC and the Court will refer to Defendant by that
name or as LANS.

App.14a
(NMHRA), the Age Discrimination in Employment Act
(29 U.S.C. § 621 et seq.) (ADEA), and Title VII of the
Civil Rights Act of 1964 (42 U.S.C. § 2000e-2(a)(1) (Title
VII). See COMPLAINT FOR EMPLOYMENT DISCRIMINATION AND RETALIATION (Doc. No. 1)
(Complaint). The Motion is fully briefed.2 In the Complaint, Plaintiff, who was discharged from employment
at LANS in December 2013, alleges that LANS
discriminated against and retaliated against him in
refusing to rehire him for other positions at LANS.
(Compl. ¶ 15.) Because Plaintiff failed to present
evidence that LANS discriminated against or retaliated
against him, the Court will grant the Motion.
I.

Standard of Review

Summary judgment may be granted if “the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). When applying
this standard, the Court examines the factual record
and reasonable inferences therefrom in the light most
favorable to the party opposing summary judgment.

Applied Genetics Intl, Inc. v. First Affiliated Sec.,
Inc., 912 F.2d 1238, 1241 (10th Cir. 1990). The party
seeking summary judgment bears the initial burden
of “show[ing] that there is an absence of evidence to
support the nonmoving party’s case.” Bacchus Indus.,
Inc. v. Arvin Indus., Inc., 939 F.2d 887, 891 (10th Cir.
1991) (internal quotation marks omitted). Once the

2 See PLAINTIFF’S RESPONSE IN OPPOSITION TO DEFENDANT’S MOTION FOR SUMMARY JUDGMENT (Doc. No. 64)
(Response); and DEFENDANT LOS ALAMOS NATIONAL
SECURITY LLC’S REPLY BRIEF IN SUPPORT OF MOTION
FOR SUMMARY JUDGMENT (Doc. No. 69) (Reply).

App.15a
movant meets this burden, the non-moving party
must designate specific facts showing that there is a
genuine issue for trial. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 256 (1986). In considering a motion
for summary judgment, the Court’s role is simply to
determine whether the evidence proffered by plaintiff
would be sufficient, if believed by the ultimate
factfinder, to sustain the claim. Foster v. Alliedsignal,
Inc., 293 F.3d 1187, 1195 (10th Cir. 2002).
At the summary judgment stage and at trial,
federal courts follow the McDonnell Douglas Corp. v.
Green,3 burden-shifting approach in assessing discrimination and retaliation claims under the ADEA,
the NMHRA, and Title VII.
II.

Background

Plaintiff is a 78 year old naturalized United
States citizen of East Indian birth. (Compl. ¶ 6.) In
1999, when Plaintiff was 60 years old, LANS hired
him as a Safety Basis Analyst (SBA-3).4 (Id. ¶ 5.) At
first, Plaintiff received awards, honors, and “kudos”
for his work; however, LANS terminated Plaintiff’s
employment on December 6, 2013 after Plaintiff
received several negative evaluations and after Plaintiff
unsuccessfully participated in a year-long Performance
Improvement Plan (PIP).5 The negative evaluations
3 411 U.S. 792, 802-803 (1973).
4 LANS had four Safety Basis Analyst levels. Safety Basis
Analyst (SBA) 1 was the lowest and SBA 4 was the highest level.
5 The facts related to the pre-termination events are set forth in
the MEMORANDUM OPINION AND ORDER (Doc. No. 83)
granting LANS’ motion for summary judgment in Laul I. In
that case, Plaintiff brought claims that he was discharged based

App.16a
and disciplinary actions focused on Plaintiff’s unprofessional, disrespectful, and disruptive behavior and
his inability to perform assigned tasks. Laul v. Los
Alamos Nat’l Laboratories, 15 CV 749 JAP/KBM,
2016 WL 9777256, at *5 (D.N.M. Sept. 27, 2016), aff’d,
714 F. App’x 832, 2017 WL 4772415 (10th Cir. Oct.
23, 2017) pet. for cert. filed (Laul I). The PIP focused
on “significant deficiencies in [Plaintiff’s] work performance[,]” including Plaintiff’s “tendency to rely on
others too much to help him complete his work[,]”
and Plaintiff’s failure to exhibit “the amount of
understanding of safety basis issues[.]”Id. at *6-*7
(quoting 2012 performance evaluation). LANS keeps
employment termination letters in an employee’s file
indefinitely.6
on his age, national origin, and in retaliation for complaining
about discrimination. 2016 WL 9777256, at *16.
6 Plaintiff testified in his affidavit that letters of termination were
kept in an employee’s file for one year (Laul Aff. ¶ 17); however,
Ms. Barbara Pacheco, the Human Resources Generalist for the
Associate Directorate for Nuclear and High Hazard Operations
testified:
Q.

And if an employee like Dr. Laul has been terminated for performance issues, how long does that
stay in his file, as far as the record of the
termination?

A.

The termination folder stays whole forever.

Q.

And can hiring managers, can they look at those
folders and find out if an employee’s been
terminated?

A.

They can.

(Resp. Ex. D, Pacheco Dep. 42:21-43:5.) Without evidentiary support, Plaintiff alleges that LANS intentionally failed to remove
Plaintiff’s December 6, 2013 termination letter from his personnel

App.17a
On January 2, 2014, Richard Marquez, LANS’
Executive Director, informed Plaintiff in an email
that despite having been discharged, he could apply
for external positions at LANS for which he was
qualified.7 (Id. ¶ 10.) From October 20, 2014 to May
4, 2015, Plaintiff applied for 19 positions8 at LANS
but was not interviewed for any of the positions. (Id.
¶¶ 13-14.) Plaintiff alleges that he was “well-qualified”
for all of the positions due to his “strong educational
background, excellent credentials, relevant professional
certifications, and approximately 38 years of experience
in various scientific disciplines.” (Id. ¶ 15.)
A. LANS issues a “Be on the Lookout” (BOLO)
In early 2014, Plaintiff went to LANS’ Occupational
Medicine (Occ. Med.) building and asked to speak to
Janet McMillan, a Certified Occupational Health Nurse
at LANS and the wife of LANS’ Director, Charles McMillan. (Mot. Ex. 16, J. McMillan Dep. 4:5-5:20; 9:1410:17; Mot. Ex. 17, J. McMillan Decl. ¶¶ 2, 4.) Plaintiff
found Ms. McMillan in a small triage office near the
file after the one-year period in order to prevent Plaintiff from
being rehired. (Laul Aff. ¶ 18.) The Court will disregard this
evidence as not based on personal knowledge. Fed. R. Civ. P. 56
(c)(4).
7 Plaintiff alleges that LANS intentionally refused to place the
January 2, 2014 email into Plaintiff’s personnel file, which prevented him from being rehired. (Id.) Since no other evidence
supports this assertion, the Court will not consider it. Moreover,
the email merely stated the obvious, that Plaintiff could apply
for external positions as a former employee.
8 Plaintiff applied for 30 positions; however, LANS cancelled 11
of them. Thus, only 19 positions are at issue in this lawsuit.
(Mot. at 4, UMF 2, Ex. 2 Laul Dep. 402:3-17.)

App.18a
main lobby and handed her a picture of himself, Ms.
McMillan and Mr. McMillan that was taken at a
holiday event one year earlier. (J. McMillan Decl.
¶ 4, J. McMillan Dep. 9:20-10:4.) Plaintiff asked to
speak with Ms. McMillan and closed the office door. (J.
McMillan Dep. 10:5-8.) Plaintiff told Ms. McMillan
that he had been unfairly discharged, and Plaintiff
asked Ms. McMillan to take some documents to Mr.
McMillan and to tell her husband to reinstate his
employment. (Id. 10:13-17.) Ms. McMillan refused to
take the documents and told Plaintiff to talk to the
appropriate people at LANS. Plaintiff continued to
urge Ms. McMillan to take the documents to her
husband. (Id.) After Ms. McMillan’s refusals, Plaintiff raised his voice and physically approached Ms.
McMillan in her “personal space.” (Id. 11:10-19.) Ms.
McMillan testified that Plaintiff told her that if she
did not take the documents, he would contact the
press, and he would “make things very ugly for me,
my husband, and the laboratory [LANS].” (Id. 11:2023.) Ms. McMillan felt threatened by Plaintiff’s words
and actions, maneuvered toward the closed door, and
opened the door while saying “I have clients coming
and I need to go now.” (Id. 12:1-8.) Plaintiff followed
Ms. McMillan out to the front desk while repeating
the statement that he would contact the press and
make things ugly for the McMillans and LANS. (Id.
12:15-15.) Plaintiff then left the building. (Id. 12:17-20.)
Ms. McMillan reported this incident to her supervisor,
Laura Kosky, but told Ms. Kosky not to file an official
report because Ms. McMillan thought she had given
information to Plaintiff that would help him. (Id.
12:21-25; J. McMillan Decl. ¶ 10.)

App.19a
On June 30, 2015, Plaintiff again visited the Occ.
Med. building. (Id. ¶ 11.) Ms. McMillan was working in
her private office, and Plaintiff asked the front desk
receptionist to page her. (J. McMillan Dep. 14:10-16.)
Ms. McMillan testified she responded to the page, but
“ . . . when I came around the corner and I saw him, I
instantly recognized him[.]” (Id. 14:19.) Plaintiff asked
Ms. McMillan if they could go to a “private place to talk,
like my office.” (Id. 15:1-5.) Ms. McMillan responded
No, I don’t think anything that we would be
talking about would be a problem. Sit right
down here. . . . He resumed his same presentation as before. He said he had not
gotten his job back . . . and this made me
nervous, because if he didn’t get that job
back, I didn’t know how he would be able to
be in the building, because it’s a secure
building and you have to badge in. . . . And
then he had an envelope, which he said
were papers I need to present to my husband
to help him get his job back.
(Id. 15:6-16:4.) Ms. McMillan again refused to take
the documents, and Plaintiff threatened to “make it
very ugly for you.” (Id. 16:8-9.) Ms. Losky walked into
the lobby, and Ms. McMillan called her over. (Id. 16:16.)
One of the health care providers, Wally Collings also
entered the lobby. Mr. Collins testified that Plaintiff
continued to urge Ms. McMillan to take the paperwork to her husband or Plaintiff would “go to the
press.” (Mot. Ex. 18, Collins Decl. ¶ 4.) Mr. Collins
intervened, asked Ms. McMillan to go to her office,
and escorted Plaintiff out of the building. (Mot. Ex.
18, Collins Decl. ¶ 6.) Ms. McMillan sent an email
describing this second incident to Richard Marquez,

App.20a
Executive Director of LANS, and sent a copy of the
email to her husband. (Mot. Ex. 16, J. McMillan Decl.
¶ 16; J. McMillan 25:25-26:6.)
After receiving the email, Mr. Marquez informed
Michael Lansing, Acting Principal Associate Director
for Operations and Business, about the incident. (Mot.
Ex. 19, Marquez Dep. 22:20-23:8.) On July 1, 2015,
Mr. Lansing and the LANS Personnel Security office
issued a “Be on the Lookout” or BOLO for Plaintiff.
(Id. 23:11-16.) LANS’ security personnel use a BOLO
to alert officials at LANS’ gates that an individual is
not permitted to enter LANS’ property, and if the
person is seen on the property, a report should be
made to LANS’ security office. (Id. 23:20-25.)
B. Plaintiff’s job applications and LANS’ responses
1. Environmental Positions
a. Environmental Professional 3 position
(IRC 35849)
On October 8, 2014, LANS posted this position, and
Plaintiff submitted an application for the position on
October 20, 2014. (Mot. Ex. 4, Payne Decl. ¶ 3(a).)
Patricia Gallagher, now deceased, was the Environmental Stewardship Group Leader and the hiring
manager for the position. (Id. ¶ 3.) Ms. Jennifer Payne,
the current Environmental Stewardship Group Leader,
was a member of Ms. Gallagher’s hiring team. (Id.
¶¶ 2, 3(b).) Ms. Payne testified that, based on her
personal knowledge as a member of the hiring team
and based on a review of the relevant documents, she
determined that Ms. Gallagher elected not to interview Plaintiff because Plaintiff did not meet the min-

App.21a
imum qualifications for the position. (Id. ¶ 3(c).) Ms.
Payne testified that Plaintiff lacked experience in
maintaining compliance with the National Environmental Policy Act (NEPA), which was required for
the position. (Id. ¶¶ 3(c), (d), (k).) The successful
candidate, Elizabeth English, a 55 year old Caucasian,
had extensive experience developing and preparing
NEPA compliance documents for the Chemistry and
Metallurgy Replacement Project at LANS. (Id. ¶ 3(e).)
Ms. Payne testified that there is no indication in
Ms. Gallagher’s records that Ms. Gallagher was aware
of Plaintiff’s discharge from LANS or that Ms. Gallagher was aware of Plaintiff’s complaints against LANS
for discrimination. (Id. ¶¶ 3(g), (h).) Ms. Payne testified that there is no indication that Ms. Gallagher
considered Plaintiff’s age, race, or national origin in
making her decision. (Id. 3(i).) Nor was there any
indication that Ms. Gallagher was told not to interview
or hire Plaintiff. (Id. ¶ 3(f).)
b. Environmental Professional 3 position
(IRC 35763)
On October 9, 2014, LANS posted this position, and
Plaintiff submitted an application for the position on
October 21, 2014. (Mot. Ex. 4, Payne Decl. ¶ 3(l).) Again,
the hiring manager was Ms. Gallagher, and Ms.
Payne assisted her and reviewed the documents related
to Ms. Gallagher’s decision. (Id. ¶¶ 2, 3.) Ms. Payne
testified that Ms. Gallagher elected not to interview
Plaintiff because she determined that Plaintiff was
not qualified for the position. (Id. ¶ 3(m).) Ms. Gallagher
noted Plaintiff’s lack of experience with broad environmental regulatory compliance oversight particularly under the Resource Conservation and Recovery

App.22a
Act (RCRA), a specific requirement for the position.
(Id. 3(n), (t).)
The successful candidates—James Stanton, Pattie
Baucom, and Victoria Baca—had between 10 and 25
years of experience with environmental regulatory
compliance and RCRA. (Id. 3(o).) Mr. Stanton, Ms.
Baucom, and Ms. Baca are younger than Plaintiff and
are not East Indian. (Resp. Ex. A, Laul Aff. ¶ 7.)
Ms. Payne testified that there was no indication
that in making this decision, Ms. Gallagher was aware
of Plaintiff’s previous performance issues at LANS,
his discharge, or his discrimination claims against
LANS. (Mot. Ex. 4, Payne Decl. ¶¶ 3(q), (r).)
c. Environmental Professional 3 position
(IRC 37521)
On February 3, 2015, LANS posted this position,
and Plaintiff submitted an application on February
12, 2015. (Mot. Ex. 4, Payne Decl. ¶ 3(u).) Patricia
Gallagher was the hiring manager for the position.
(Id. ¶ 3.) Forty-three people applied for the position.
(Id. ¶ 3(u).) Ms. Payne, a member of the hiring team,
testified that Plaintiff was not interviewed for this
position because without NEPA experience, Plaintiff
was not the best qualified applicant for the position.
(Id. ¶ 3(w).) Randall Reddick was hired for this position
because he had more than 20 years of experience in
NEPA compliance. (Id. ¶ 3(x).) Mr. Reddick is younger
than Plaintiff and is not East Indian. (Resp. Ex. A, Laul
Aff. ¶ 19.)
Ms. Payne testified that there was no indication
that Ms. Gallagher was aware of Plaintiff’s previous
performance issues at LANS, Plaintiff’s discharge, or

App.23a
Plaintiff’s discrimination claims against LANS. (Mot.
Ex. 4, Payne Decl. ¶¶ 3(y), (z).) There was no indication
that Ms. Gallagher considered Plaintiff’s age, race, or
national origin in her decision not to interview Plaintiff
for this position. (Id. ¶ 3(bb).) Nor was Ms. Gallagher
advised by James Tingey or any other LANS employee
not to interview or hire Plaintiff. (Id. ¶ 3(y).)
d. Environmental Manager 3 position
(IRC 37809)
On March 3, 2015, LANS posted this position, and
Plaintiff submitted an application on March 5, 2015.
(Mot. Ex. 11, Grieggs Decl. ¶ 3.) Anthony Grieggs, Environmental Manager 4 (Group Leader) in the Environmental Protection & Compliance Division, was the
hiring manager for this position. (Id. ¶ 2.) Mr. Grieggs
received 31 applications for this position. (Id. ¶ 3.)
Plaintiff, along with several of the other applicants,
was not considered for the position because he “did
not have the experience in environmental management
and compliance that was required for the job posting.”
(Id. ¶ 5.) Michael Saladen and Mark Haagenstad were
hired based on their “extensive requisite experience
in environmental management and compliance.” (Id.
¶ 6.) At the time of the hiring decision, Mr. Grieggs
did not know about Plaintiff’s previous performance
issues, discharge, or discrimination complaints against
LANS. (Id. ¶¶ 8, 9).) Mr. Grieggs did not consider
Plaintiff’s age, race, or national origin when making
the decision. (Id. ¶ 10.) Nor was he advised by James
Tingey or any other LANS employee not to interview
or hire Plaintiff due to his prior performance issues.
(Id. ¶ 7.)

App.24a
Ms. Saladen and Mr. Haagenstad are both substantially younger than Plaintiff and are not East
Indian. (Resp. Ex. A, Laul Aff. ¶ 35.)
e. Plaintiff’s Response
Plaintiff argues that Ms. Payne’s affidavit should
be disregarded because she has no personal knowledge
of Ms. Gallagher’s reasons for rejecting Plaintiff.
(Resp. at 1-2.) The Court finds that Ms. Payne’s affidavit
is based on personal knowledge because she was a
member of the hiring team for each of the positions.
In his deposition, however, Plaintiff testified he
did not know whether Ms. Gallagher discriminated
against him:
Q.

Now tell me, do you believe that . . . you didn’t
get the job because Ms. Gallagher was considering your age or your race or your national
origin?

A.

I can’t read her mind, but she knows who I
am.

Q.

You called who?

A.

Gallagher knows who I am.

Q.

Yeah.

A.

And I had reviewed their program, so they
know it. And whether she is thinking of ruling
me out on national origin, race, that is her
consideration. I have no way of knowing. I
can’t read her mind.

(Mot. Ex. 2, Laul Dep. 158:18-159:6.) Plaintiff asserts
that he not only met the minimum requirements for all
four of the Environmental positions, but was more

App.25a
qualified for the positions than the candidates who were
chosen. (Resp. Ex. A, Laul Aff. ¶¶ 3, 4, 6, 7, 18, 19, 33,
34.) Plaintiff maintains that he is “considered a Subject Matter Expert (SME) in Environmental Regulatory
Compliance Programs including NEPA.” (Id. ¶ 3.)
Plaintiff contends that his education and experience
is far superior to each of the candidates chosen for
these positions.9
2. Research and Development Manager 4
position (IRC 35837)
This position was located in the Actinide Analytical
Chemistry Group, and was posted on September 23,
2014. (Mot. Ex. 5, Stark Decl. ¶ 3.) Plaintiff submitted
an application for this position on October 29, 2014.
(Id.) David Morris, the hiring manager, assigned Peter
Stark, a Research and Development Manager 4 (Group
Leader) for the Chemistry Division’s Chemical Diagnostic and Engineering Group, to review and screen
9 Plaintiff testified that he has “M.S. degree in Chemistry and
Ph.D in Nuclear Chemistry from Purdue University, and also
M.S. in Environmental Science and Engineering from CSM, CO
[Colorado School of Mines]. I was involved in developing of Environmental Regulations courses of [sic] CAA (Clean Air Act),
CWA (Clean Water Act), RCRA (HW), and NEPA at Rocky Flatts
[sic]. I provided guidance to 10-15 workers and reviewed their
Environmental reports and gave feedback for improvement. I
audited LANL Environmental Regulatory Programs including
Mr. Saladen [sic] CWA program in 2014. . . . I have published
100 reports and papers alone and in collaboration with others in
various technical areas. I have received 20 Awards/Honors/Kudos
from various technical projects. I am also a member of ANS,
REM, CHMM, NFPA, EFCOG/SAWG under five Professional
Societies/National Committees and is [sic] a Subject Matter Expert
in Environmental Regulatory Compliance Programs.” (Resp. Ex.
A, Laul Aff. ¶ 34.)

App.26a
applications. (Id. ¶¶ 2-3.) Mr. Stark reviewed Plaintiff’s application and concluded that Plaintiff was not
the most qualified candidate for the position because
Plaintiff’s research skills in analytical and radiochemistry, an important job qualification, were inferior
to the skills of Anne Schake, the successful candidate.
(Id. ¶¶ 4-6.)
Mr. Stark testified that at the time he made the
hiring decision, he was not aware of Plaintiff’s discharge, performance issues, or discrimination claims
against LANS. (Id. ¶¶ 8-9.) Mr. Stark testified that
in making his decision he did not consider Plaintiff’s
age, race, or national origin. (Id. ¶ 10.) Nor was Mr.
Stark advised by James Tingey or any other LANS’
employees that he should not interview Plaintiff due
to his age, race, national origin, past performance
issues, or discharge. (Id. ¶ 7.)
Plaintiff has acknowledged that Ms. Schake was
“well qualified” for the position. (Mot. Ex. 2, Laul Dep.
194:5-11.) However, Plaintiff contends that he was
more qualified than Ms. Schake: “My cover letter and
resume illustrate my strong technical background
with 15 years of experience in developing various
radiochemical separations. I have written thirty papers
on radiochemistry methodologies that deal with instrumentations and radiochemical separations. I have
written two review articles involving NAA and radiochemical separations.” (Resp. Ex. A, Laul Aff. ¶ 8.)
Plaintiff continued: “Ms. Schake has a Ph.D in
Inorganic Chemistry and a BA in Chemistry, and 20
years of experience in a nuclear facility. She has listed
42 reports and publications alone and in collaboration. Ms. Schake has won six awards and honors. She
was a member of professional organizations and

App.27a
committees.” (Id. ¶ 9.) Nevertheless, Plaintiff maintains that his educational background is superior.
(Id.)
At his deposition Plaintiff testified:
Q.

She was chosen. That’s what it says. Justification for hire. “How is the selected candidate
the most qualified?” That’s what it says; right?

A.

Let me read.
Well, I think she seems well qualified because
the way I see it, I think she is, but if you look
at my resume, my resume is also pretty good.

(Mot. Ex. 2, Laul Dep. 194:5-11.) Despite this testimony,
Plaintiff opines that he was not hired because he was
East Indian or because of his age.
3. Engineer 3/4 position (IRC 36084)
On October 17, 2014, LANS posted a notice for
three engineer positions, and Plaintiff submitted an
application on October 31, 2014. (Mot. Ex. 6, Burnett
Decl. ¶ 3.) Mel Burnett was the hiring manager and
reviewed Plaintiff’s application along with 10 other
applications. (Id. ¶¶ 3-5.) Mr. Burnett did not interview
Plaintiff because Plaintiff did not have a sufficient
level of experience specific to system engineering. (Id.
¶¶ 5, 11.) Jeffrey Freeburg, Randall Stringfield, and
Jason Apperson were hired for the positions based on
their extensive experience with system engineering.
(Id. ¶ 6.)
Mr. Burnett testified that he was not aware of
Plaintiff’s previous performance issues, discharge, or
discrimination claims against LANS. (Id. ¶¶ 8-9.) Mr.
Burnett testified that he did not consider Plaintiff’s

App.28a
age, race, or national origin when making the hiring
decision. (Id. ¶ 10.) Mr. Burnett testified he was never
advised by James Tingey or any other LANS employee not to interview Plaintiff for the position. (Id. ¶ 7.)
Plaintiff claims he was more qualified than those
who were hired. (Resp. Ex. A, Laul Aff. ¶¶ 11-12.)
However, Plaintiff admitted in his deposition that all
three of these candidates were qualified for the position.
(Mot. Ex. 2, Laul Dep. 211:1-212:17.) Plaintiff emphasizes that all three successful candidates were Caucasians and significantly younger than Plaintiff. (Resp.
Ex. A, Laul Aff. ¶¶ 11-12.)
4. Scientist 2/3 position (IRC 37277)
On January 15, 2015, LANS posted this position,
and Plaintiff submitted an application for the position
on January 23, 2015. (Mot. Ex. 7, Steiner Decl. ¶ 3.)
Robert Steiner, the Team Leader of the Radiochemistry
Group in the Chemistry Division of LANS, was the
hiring manager. (Id. ¶¶ 2-3.) Mr. Steiner reviewed
Plaintiff’s application materials and elected not to
interview Plaintiff because Plaintiff did not have the
requisite experience in secondary ion mass spectrometry
(SIMS). (Id. ¶¶ 4-5, 11.) Travis Tenner was hired for the
position because he had extensive experience in SIMS
and in using magnetic sector SIMS instruments. (Id.
¶ 6.)
Mr. Steiner testified that at the time of the
hiring decision, he did not know about Plaintiff’s previous performance issues, discharge, or discrimination claims against LANS. (Id. ¶¶ 8-9.) Mr. Steiner
testified he did not consider Plaintiff’s age, race, or
national origin when making the decision. (Id. ¶ 10.)
Nor was Mr. Steiner advised by James Tingey or any

App.29a
other LANS employee not to interview Plaintiff. (Id.
¶ 7.)
Plaintiff again argues that he was more qualified
than the successful candidate, a younger Caucasian.
(Resp. Ex. A, Laul Aff. ¶¶ 14-15.) However, in his deposition, Plaintiff testified:
Q.

Do you have any reason to believe that Mr.
Steiner was motivated not to interview or
hire you by your age, race, age or your
national origin?

A.

He has that information. Whether he was
motivated or not, that is his conscience. He
never called me, said JC, I am not interviewing you because blah, blah, blah. All I’m
saying is he has that information through my
personnel file. This is common sense.

(Mot. Ex. 2, Laul Dep. 429:25-430:8.)
5. Quality Assurance Positions
a. Quality Assurance Engineer 4 position
(IRC 37014)
On December 15, 2014, LANS posted this position,
and Plaintiff submitted an application on February
12, 2015. (Mot. Ex. 8, Sivils Decl. ¶ 3(a).) Dale Sivils,
Director for the Manufacturing Quality Division of
the Plutonium Science and Manufacturing Directorate,
was the hiring manager. (Id.) Mr. Sivils reviewed
Plaintiff’s application materials and elected not to
interview Plaintiff. According to Mr. Sivils, Plaintiff
lacked the requisite experience in weapons quality
work, which is very different from the safety basis
work that Plaintiff had previously performed at LANS.

App.30a
(Id. ¶ 3(c).) Linda Cassidy and Joseph Pestovich were
hired for this job posting based on their relevant
experience. (Id. ¶ 3(d).)
Mr. Sivils testified that at the time of the hiring
decision, he did not know about Plaintiff’s previous
performance issues, discharge, or discrimination claims
against LANS. (Id. ¶¶ 3(e), (f).) Mr. Sivils testified he
did not consider Plaintiff’s age, race, or national origin
when making the decision. (Id. ¶ 3(g).) Nor was Mr.
Sivils advised by James Tingey or any other LANS
employee not to interview or hire Plaintiff. (Id. ¶ 3(e).)
Plaintiff maintains that he was more qualified
than Ms. Cassidy and Mr. Pestovich who are younger
Caucasians:
Q.

Do you have any reason to believe that
Mr. [Sivils] hiring manager for 37014 was
motivated by your race, your age, or your
national origin?
[...]

A.

It’s possible. Many people see he is brown,
he is black, he is Indian. Intrinsic bias comes
in.

(Mot. Ex. 2, Laul Dep. 457:15-458:8.)
b. Quality Assurance Engineer 3/4 position
(IRC 38532)
On April 16, 2015, LANS posted this position,
and Plaintiff submitted an application on April 28,
2015. (Mot. Ex. 8, Sivils Decl. ¶ 3(j).) Mr. Sivils was
also the hiring manager for this position. (Id.) Mr.
Sivils reviewed Plaintiff’s application materials and
elected not to interview Plaintiff because he did not

App.31a
have the requisite experience in a manufacturing
quality environment. (Id. ¶ 3(l).) Marvin Montoya,
Samuel Adams, Eric Keim, David Bell, Ronald Salazar,
Victoria Teel, Georgia Chavez, Daniel Stewart, and
Mark Haines were hired for job posting IRC 38532
based on their extensive experience in manufacturing
quality.” (Id. ¶ 3(m).)
Mr. Sivils testified that at the time of the hiring
decision, he did not know about Plaintiff’s previous
performance issues, discharge, or discrimination claims
against LANS. (Id. ¶¶ 3(o), (p).) Mr. Sivils testified
he did not consider Plaintiff’s age, race, or national
origin when making the decision. (Id. ¶ 3(q).) Nor
was Mr. Sivils advised by James Tingey or any other
LANS employee not to interview or hire Plaintiff. (Id.
¶ 3(n).)
c. Quality Assurance Engineer 4 position
(IRC 37672)
On February 13, 2015, LANS posted this position,
and Plaintiff submitted an application on February
16, 2015. (Mot. Ex. 9, Tepley Decl. ¶ 3(a). Daniel Tepley,
the Group Leader for the Quality and Performance
Assurance Institutional Quality Group in the Quality
and Performance Assurance Division, was the hiring
manager. (Id. ¶ 3(a).) Plaintiff was not interviewed for
this position because Plaintiff did not demonstrate
the requisite experience in construction quality assurance. (Id. ¶ 3(c).) Robert Swatek was hired based on his
30 years of experience in construction quality assurance. (Id. ¶ 3(d).)
At the time of the hiring decision, Mr. Tepley did
not know about Plaintiff’s previous performance issues,
discharge, or discrimination claims against LANS.

App.32a
(Id. ¶¶ 3 (f), (g).) Mr. Tepley did not consider Plaintiff’s
age, race, or national origin when making the decision.
(Id. ¶ 3(h).) Nor was Mr. Tepley advised by James
Tingey or any other LANS employee not to interview
or hire Plaintiff. (Id. ¶ 3(e).)
Plaintiff argues he is better qualified than Mr.
Swatek, a 60-year-old Caucasian male. (Resp. Ex. A,
Laul Aff. ¶¶ 20-22.) Plaintiff testified that Mr. Swatek “has some understanding of nuclear construction
codes, standards, principles, and processes associated
with NQA-1 program LANL SD330, and product
quality. Mr. Swatek does not list any publications
. . . and no mention of Awards/Honors/Kudos in his
job service. . . . [nor] any memberships with Professional Societies/National Committees.” (Id. ¶ 21.)
d. Quality Assurance Engineer 4 position
(IRC 37732)
On February 13, 2015, LANS posted this position,
and Plaintiff submitted an application on February
16, 2015. (Mot. Ex. 9, Tepley Decl. ¶ 3(j).) Mr. Tepley,
the hiring manager, testified that Plaintiff was not
interviewed for this position because he did not
demonstrate any specific experience in construction
quality assurance. (Id. ¶ 3(l).) Richard Love was hired
based on his history of “building teams, delivering technical training, setting goals, and developing individual employees in a construction quality assurance
setting. He also had superior technical understanding of LANS’ nuclear construction codes, standards,
principles and processes associated with the Nuclear
Quality Assurance-1 program and product quality.”
(Id. ¶ 3(m).)

App.33a
Mr. Tepley testified that at the time of the hiring
decision, he did not know about Plaintiff’s previous
performance issues, discharge, or discrimination claims
against LANS. (Id. ¶¶ 3 (o), (p).) Mr. Tepley testified
he did not consider Plaintiff’s age, race, or national
origin when making the decision. (Id. ¶ 3(q).) Nor
was Mr. Tepley advised by James Tingey or any other
LANS employee not to interview or hire Plaintiff. (Id.
¶ 3(n).)
Plaintiff asserts he is more qualified than the
successful candidate Mr. Love, who is a 71 year old
Caucasian male. (Resp. Ex. A, Laul Aff. ¶¶ 23-25.)
Plaintiff maintains that although Mr. Love “does have
some experience in management and leadership experience, technical training delivery, goal setting,
and individual employee development[,] . . . Mr. Love’s
resume does not clearly show his educational history
or list any publications or reports and papers. Mr.
Love does not have any Awards/Honors/Kudos in his
job service, or any memberships with Professional
Societies/National Committees.” (Id. ¶ 24.)
e. Quality Assurance Engineer 3/4 position
(IRC 37952)
On February 27, 2015, LANS posted this position,
and Plaintiff submitted an application on February
28, 2015. (Mot. Ex. 9, Tepley Decl. ¶ 3(cc).) Mr.
Tepley, the hiring manager, received 17 applications.
(Id.) Plaintiff, along with several of the other applicants,
was not considered for this position because he “did
not demonstrate in his application any specific experience in construction quality assurance[.]” (Id. ¶ 3(ee).)
Roger Crawford was hired based on his “demonstrated
. . . ability to successfully ensure quality assurance

App.34a
requirements were met during the design, bid, build,
and start-up of various types of facilities, all of which
were specifically listed in the job position as minimum requirements or desired skills.” (Id. ¶ 3(ff).)
Mr. Tepley testified that at the time of the hiring
decision, he did not know about Plaintiff’s previous
performance issues, discharge, or discrimination claims
against LANS. (Id. ¶¶ 3 (hh), (ii).) Mr. Tepley testified
he did not consider Plaintiff’s age, race, or national
origin when making the decision. (Id. ¶ 3(jj).) Nor
was Mr. Tepley advised by James Tingey or any other
LANS employee not to interview or hire Plaintiff due
to his prior performance issues. (Id. ¶ 3(gg).)
Plaintiff again stacks his qualifications higher
than Mr. Crawford’s, who is a Caucasian male and who
“does not have experience in quality assurance requirements (QAR).” (Resp. Ex. A, Laul Aff. ¶ 31.)
f. Quality Assurance Specialist 2 position
(IRC 37678)
On February 27, 2015, LANS posted this position,
and Plaintiff submitted an application on February
28, 2015. (Mot. Ex. 9, Tepley Decl. ¶ 3(t).) Mr. Tepley,
the hiring manager, received 29 applications for the
position. (Id.) Mr. Tepley testified that Plaintiff,
along with several of the applicants, was not considered
for this position because Plaintiff “did not demonstrate
any specific experience in inspections and quality
assurance—one of the minimum requirements for the
position.”10 (Id. ¶ 3(v).) Laura Solano was hired based
10 In the Response, Plaintiff argues that the Court can imply
pretext because the cover letter and resume that is attached to
Mr. Tepley’s affidavit are not the cover letter and resume that

App.35a
on her “demonstrated experience in inspections and
quality assurance.” (Id. ¶ 3(w).)
Mr. Tepley testified that at the time of the hiring
decision, he did not know about Plaintiff’s previous
performance issues, discharge, or discrimination claims
against LANS. (Id. ¶¶ 3 (y), (z).) Mr. Tepley testified
he did not consider Plaintiff’s age, race, or national
origin when making the decision. (Id. ¶ 3(aa).) Nor
was Mr. Tepley advised by James Tingey or any other
LANS employee not to interview or hire Plaintiff due
to his prior performance issues. (Id. ¶ 3(x).)
Plaintiff argues that his qualifications are better
than Ms. Solano’s who has only 10 years’ experience
in Quality Assurance compared with Plaintiff’s 30
years. (Resp. Ex. A, Laul Aff. ¶ 29.) Plaintiff notes that
Ms. Solano is a “younger non-Indian.” (Id.)

Plaintiff submitted to LANS. (Resp. at 38.) Plaintiff attaches
the “correct” cover letter and resume to his Response, which he
claims illustrate his quality assurance experience. (Resp. Ex. E.)
However, even if Plaintiff’s correct documents reflected quality
assurance experience, the evidence does not establish a fact
issue that he was refused an interview because of his age or
national origin or because of his prior complaints of discrimination. There is no evidence that Mr. Tepley’s preference for Ms.
Solano was a pretext for discrimination. Plaintiff also speculates in
his argument that the document mistake is evidence of a business “cover-up.” Webb v. Level 3 Communications, LLC, 667 F.
App’x 725, 733 (10th Cir. 2006) (unpublished) (stating that the
plaintiff had presented no evidence of a conspiracy outside of
pure speculation).

App.36a
6. Safety Analyst Positions
a. Critical Safety Analyst 1/2 position
(IRC 37674)
On February 19, 2015, LANS posted this position,
and Plaintiff submitted an application on February
28, 2015. (Mot. Ex. 10, Wysong Decl. ¶ 3.) Dr. Andrew
Wysong, the Nuclear Criticality Safety Division Leader
in Nuclear and High Hazard Operations, was the hiring
manager. (Id.) Dr. Wysong testified that Plaintiff was
not interviewed because “he did ‘not have hands on
experience in running codes’” (Id. ¶ 5) (quoting Plaintiff’s application). Michael MacQuigg, Trevor Stewart,
and Alan Yamanaka were hired “based on either their
past experience in criticality safety or their demonstrated ability to run safety analysis tools[.]” (Id.
¶ 6.)).) Dr. Wysong testified that at the time of the
hiring decision, he did not know about Plaintiff’s previous performance issues, discharge, or discrimination claims against LANS. (Id. ¶¶ 8, 9.) Dr. Wysong
testified he did not consider Plaintiff’s age, race, or
national origin when making the decision. (Id. ¶ 10.)
Nor was Dr. Wysong advised by James Tingey or any
other LANS employee not to interview or hire Plaintiff. (Id. ¶ 7.)
b. Safety Basis Analyst 1/2 position (IRC
38516)
On April 22, 2015, LANS posted this position, and
Plaintiff submitted an application on April 27, 2015.
(Mot. Ex. 13, James Tingey Decl. ¶ 3(a).) James Tingey,
then the Deputy Division Leader for the Safety Basis
Division in Nuclear and High Hazard Operations, was

App.37a
the hiring manager.11 (Id. ¶ 3(a).) Mr. Tingey testified
that after a review of the 45 applications for the position, he determined that Plaintiff did not meet the
minimum requirements based on “his past job performance at [LANS], in which he failed to demonstrate an
ability to successfully perform at the level of a Safety
Basis Analyst 1/2.” (Id. ¶ 3(c).) Francisco Enrique
Koerdell-Sanchez, Andrew Montoya, Dr. Alexander Laptev, and Samir El-Darazi were hired for the job posting
“based on their demonstrated ability to successfully
perform at the level of a Safety Basis Analyst 1/2 or
at the same level in a position similar to safety basis
analysis.” (Id. ¶ 3(d).)12
11 In October 2013, two months before Plaintiff’s discharge, Mr.
Tingey, the Safety Basis Deputy Division Leader, reviewed and
approved Mr. Selvage’s recommendation that LANS terminate
Plaintiff’s employment. Laul, 2016 WL 9777256, at *11.
12 Mr. Tingey testified regarding the two positions for which he
was the hiring manager:
Q.

After Dr. Laul was terminated, were you ever
contacted by any hiring managers at LANL about
Dr. Laul?

A.

No.

Q.

Were you aware Dr. Laul was still applying for
other positions at LANL after he was terminated?

A.

Yes.

Q.

How did you know that?

A.

Because those applications came to me for
assessment.

Q.

And what did you do when the applications
came to you?

A.

I had my chief of staff prepare a binder that
contained all the resumes for that particular

App.38a
Because Mr. Tingey approved the termination of
Plaintiff’s employment in December 2013, Mr. Tingey
was well aware of Plaintiff’s past performance issues
and Plaintiff’s discrimination claims. Mr. Tingey testified he did not consider Plaintiff’s discrimination
claims, age, race, or national origin in his decision
not to interview Plaintiff. (Id. ¶ 3(e), (f).)

job opening. Then assembled a team and go
through the resumes to determine which candidates should be interviewed and—to go further
in the process.
Q.

Did you make any recommendations with regard
to Dr. Laul’s applications whether or not he
would be interviewed?

A.

Yes.

Q.

What was your recommendation?

A.

My recommendation was that he would not be
interviewed based on the fact that he was
terminated because his performance in the
safety basis area was not satisfactory.

Q.

So would it be fair to say that based on your recommendation that he not be interviewed, he
was not given any interviews?
[...]

A.

It was the recommendation of the hiring team
that we put together.
[...]

Q.

Okay. And Mr. Tingey, was it your recommendation in every application you reviewed that Dr.
Laul put in that he not be interviewed?

A.

Yes.

(Resp. Ex. B, Tingey Dep. 51:20-53:17.)

App.39a
c. Safety Basis Analyst 3/4 position (IRC
38573)
On April 25, 2015, LANS posted this position, and
Plaintiff submitted an application on April 27, 2015.
(Id. ¶ 3(h).) Mr. Tingey, the hiring manager, testified
that he did not interview Plaintiff because “while
employed at LANS, [Plaintiff] . . . demonstrated an inability to successfully perform at the level of a Safety
Basis Analyst 3/4.” (Id. (i), (j).) Thus, Mr. Tingey
determined that Plaintiff did not meet the minimum
qualifications for the position. (Id.) Sharon Walker
was hired for the position “based on her thirty (30)
years of successful work in safety basis.” (Id. ¶ 3(k).)
As mentioned, Mr. Tingey was aware of Plaintiff’s
discrimination claims, but he testified that “this did
not affect his consideration of [Plaintiff’s] application.” (Id. ¶ 3(l).) Mr. Tingey also testified that he did
not consider Plaintiff’s age, race, or national origin.
(Id. ¶ 3(m).)
Ronald Selvage was the manager of the Safety
Basis-Technical Services Group to the Environmental
and Waste Management Group at the time Plaintiff was
discharged. Laul, 2016 WL 9777256, at *5. Mr. Selvage
testified about the decisions not to interview Plaintiff
for positions in the Safety Basis Group:
Q.

Do you know if Dr. Laul, did he ever apply
for any job vacancies in your group?

A.

Yes.

Q.

Did you ever interview him?

A.

No.

Q.

Did you ever consider him for any vacancies
that he applied for in your group? A. . . . as I

App.40a
looked through and look at candidates, I did
see Dr. Laul’s name on there, and I did not
recommend him. I did not look at him for
hiring, even though I didn’t hire anybody.
And I did not recommend him for any positions because he had just been terminated. I
didn’t stop anybody from—if they had wanted
to look or interview, I certainly didn’t stop
anyone from doing that.
(Resp. Ex. F, Selvage Dep. 72:12-19.)
7. Operations Positions
a. Operations Manager 6 position (IRC
38253)
On March 18, 2015, LANS posted this position,
and Plaintiff submitted an application on April 9,
2015. (Mot. Ex. 12, Pacheco Decl. ¶ 3.) The hiring
manager, Cheryl Cabbil, assigned Barbara Pacheco to
review and screen the applications. (Id. ¶¶ 2-3.) Ms.
Pacheco determined that Plaintiff “did not demonstrate
in his application a sufficient level of management
experience in the operation of large nuclear and nonnuclear facilities,” and elected not to refer Plaintiff
for an interview. (Id. ¶ 5.) Brian Watkins, Leslie
Sonneberg, and Stuart McKernan were hired for the
position “based on their extensive and recent experience
in operation of large nuclear and non-nuclear facilities.”
(Id. ¶ 6.)
As a member of the HR department, Ms. Pacheco
was aware of Plaintiff’s previous performance issues
at LANS and Plaintiff’s discrimination complaints
against LANS. (Id. ¶ 8.) In fact, Ms. Pacheco participated in evaluating Plaintiff’s performance under the

App.41a
PIP. Laul, 2016 WL 9777256, at *8. However, Ms. Pacheco testified that this knowledge did not affect her determination that Plaintiff did not meet the minimum
qualifications for this management position. (Id.) Ms.
Pacheco testified she did not consider Plaintiff’s age,
race, or national origin when making her decision. (Id.
¶ 9.) Ms. Pacheco testified that she was not advised
by James Tingey or any other LANS personnel not to
interview Plaintiff. (Id. ¶ 7.)
Plaintiff maintains that he was more qualified
than the successful candidates due to his “10 years of
management and 15 years of project management at
PNNL, Rocky Flats, and LANL.” (Resp. Ex. A, Laul Aff.
¶ 36.) Plaintiff states he was the only East Indian
candidate and the persons selected were younger nonIndians. (Id.)
b. Operations Support Specialist 4 position
(IRC 38692)
On April 24, 2015, LANS posted this position,
and Plaintiff submitted an application on April 29,
2015. (Mot. Ex. 14, Orr Decl. ¶ 3.) Timothy Orr, then
the Safety Basis Manager 6 (Division Leader), was
the hiring manager and led the hiring committee. (Id.
¶ 2.) Mr. Orr testified that Plaintiff, along with many
of the other applicants, was not interviewed because
he did not meet the minimum qualifications for the
position. (Id. ¶ 5.) In addition, the hiring committee
determined that Plaintiff “did not have the right
skillset for this position because he did not demonstrate
the appropriate level of writing skills and his application package did not provide sufficient specific
experience to demonstrate he possessed the required
combination of technical and administrative skills

App.42a
necessary for this position.” (Id. ¶ 5.) Deborah Gonzales
and Linda Vosburgh were selected for the position
based on their “demonstrated combination of technical,
procedure writing, and administrative skills and
experience relevant to the requirements of the position.”
(Id. ¶ 6.) Ms. Gonzales had 28 years of experience at
LANS, at Rocky Flats Environmental Technology Site,
and at Rockwell International; and she exhibited
extensive knowledge of Department of Energy orders
and had experience writing and editing Technical Safety
Requirements (TSR) and Documented Safety Analyses
(DSA), all of which were listed as necessary or desired
skills in the posting. (Id.) Mr. Orr testified that in
making the decision, he did not consider Plaintiff’s
age, race, or national origin and only considered Plaintiff’s lack of qualifications for the position. (Id. ¶ 9.)
Plaintiff testified:
Q.

—what did the hiring officer—was Mr.
Orr—what did he do with that information
[age, race and ethnicity]? How did he use it?

A.

Well, the fact is he didn’t give me a job
interview. That means he ruled me out. And
now he says that . . .

Q.

He ruled you out.

A.

He ruled me out.

Q.

Who else did he rule out—

A.

Well, he—

Q.

—based on age or ethnicity?

A.

Other peoples, too, but they don’t—all of
them don’t have Ph.Ds.

Q.

Okay. (Simultaneous discussion.)

App.43a
Q.

So you think he—he—he basically said,
“Okay, I don’t want the East Indians.”

A.

That may be his thinking, but he’s not telling me.

Q.

You don’t know right?

A.

Yeah. I don’t know, but this is my belief.

(Mot. Ex. 2, Laul Dep. 700:15-701:10.) Plaintiff testified in minute detail explaining why his qualifications and experience were superior to the successful
candidates’ qualifications and experience. (Resp. Ex.
A, Laul Aff. ¶¶ 44-46.) For example, Plaintiff testified
that he had “experience in various areas such as writing
and/or reviewing DSAs, BIOs, AB or SB, USQDs, SSCs
and TSRs for nuclear facilities; and HC, FSA, FSP
for non-nuclear facilities[,]” and Plaintiff cited his “10
years of management and 15 years of project management experience.” (Id. ¶ 44.) Plaintiff testified that
he was discriminated against in this decision because
he was the only East Indian applicant and he is substantially older than the successful candidates. (Id.
¶ 46.)
8. Radiation Protection Manager 4 position
(IRC 38434)
On April 6, 2015, LANS posted this position, and
Plaintiff submitted an application on May 4, 2015.
(Mot. Ex. 15, Jones Decl. ¶ 3.) Scotty Jones, Radiation
Protection Division Leader in the LANS Environment,
Safety and Health Directorate, was the hiring manager
and the leader of the hiring committee. (Id. ¶¶ 2-3.)
Mr. Jones testified that he did not interview Plaintiff
due to Plaintiff’s “lack of sufficient management experience in radiation protection or any other related field.”

App.44a
(Id. ¶ 5.) Stephen Costigan, a 54-year-old Caucasian,
was hired, “based on his demonstrated management
experience in radiation protection, his demonstrated
problem-solving abilities, and his relevant experience
as a Group Leader and acting Division Leader in the
Radiation Protection Division.” (Id. ¶ 6.)
Mr. Jones testified that when he made the hiring
decision, he was not aware of Plaintiff’s previous performance issues, the termination of his employment for
poor performance, or Plaintiff’s previous discrimination claims against LANS. (Id. ¶ 8.) In making his
decision, Mr. Jones did not consider Plaintiff’s age,
race, or national origin. (Id. ¶ 10.) During the process of
reviewing Plaintiff’s application neither James Tingey
nor any other LANS employee advised Mr. Jones not
to interview or hire Plaintiff due to his performance
issues. (Id. ¶ 7.)
Plaintiff testified that he is more qualified than
Mr. Costigan whose application “lacks information in
relation to his knowledge in 10 CFR 835; ‘Occupational
Radiation Protection Program’ and its applications;
ESH&Q, DOE O 435.1 ‘Radioactive Waste Management’, and 10 CFR 851 ‘Worker Safety and Health
Program’.” (Resp. Ex. A, Laul Aff. ¶ 48.) Mr. Costigan
is a younger Caucasian. (Id. ¶ 49.)
C. Plaintiff’s Charge and Complaint
On July 22, 2015, Plaintiff filed charges of discrimination and retaliation with the New Mexico
Department of Labor, Human Rights Division. (Id. ¶ 9.)
On September 12, 2016, Plaintiff filed this Complaint.
In Count I, Plaintiff alleges that LANS failed to rehire
him because of his age in violation of the ADEA and
the NMHRA. (Compl. ¶¶ 24-26.) In Count II, Plaintiff

App.45a
asserts a claim that LANS refused to rehire him based
on his national origin in violation of the NMHRA and
Title VII. (Id. ¶¶ 27-29.) In Count III, Plaintiff contends
that LANS declined to rehire him in retaliation for
his previous complaints about unlawful discrimination. (Id. ¶¶ 30-33.)
III. Discussion
A. Collateral Estoppel
In its Motion, LANS argues that under the doctrine
of collateral estoppel, any issues that were decided
in the prior action, Laul I, cannot be relitigated in
this action. Augustine v. Adams, 88 F. Supp. 2d 1166,
1177 (D. Kan. 2000) (summary judgement is a final
judgment on the merits for purposes of collateral estoppel). “[C]ollateral estoppel . . . prevents a party from
relitigating ‘ultimate facts or issues actually and
necessarily decided in a prior suit.’” Cordova v. New
Mexico Taxation & Revenue Dep’t, CIV 08-0681 JB/
ACT, 2011 WL 7164459, at *27 (D.N.M. Dec. 28, 2011)
(unpublished) (quoting Ullrich v. Blanchard, 2007NMCA-145, ¶ 19, 171 P.3d 774,142 N.M. 835 (citations
omitted)). For collateral estoppel to apply, four elements
must be met: “(1) the parties in the current action
were the same or in privity with the parties in the
prior action, (2) the subject matter of the two actions
is different, (3) the ultimate fact or issue was actually litigated, and (4) the issue was necessarily determined.” Cordova, 2011 WL 7164459, at * 11 (quoting
Ullrich supra). See also Howard v. Las Animas
County Sheriff’s Office, 09-CV-00640-PAB-KLM, 2010
WL 1235668, at *6 (D. Colo. Feb. 23, 2010), report and
recommendation adopted, 09-CV-00640-PAB-KLM,
2010 WL 1235673 (D. Colo. Mar. 22, 2010) (unpub-

App.46a
lished) (holding that plaintiff’s was precluded from
relitigating the termination of his employment “by
collateral estoppel because his discrimination and
retaliation claims have already been decided adversely
to him on the merits in this Court.”).
In Laul I, Plaintiff asserted that LANS rejected
several different job applications other than those at
issue here because of discrimination or in retaliation
for Plaintiff’s complaints of discrimination in late
2013. On the claim that Plaintiff was not hired due
to his age, national origin or race, the Court found
that Plaintiff failed to rebut LANS’ evidence that
Plaintiff was not as qualified as the successful applicants. 2016 WL 9777256, at * 25. The Court further
found that Plaintiff failed to establish that the proffered
reason for his rejection was a pretext for unlawful
discrimination. Id. at * 26.
On Plaintiff’s retaliatory failure to hire claim,
this Court found that Plaintiff had established a
prima facie case of retaliation because his complaints
of discrimination were very close in time to the dates
he submitted his applications for positions at LANS.
Id. at * 27. However, the Court determined that Plaintiff failed to establish that the reason he was not
hired, lack of qualifications and experience, was a pretext for retaliation. “Plaintiff presented no rebuttal to
the testimony of each hiring manager that Plaintiff
did not meet the minimum qualifications for a position
or that Plaintiff was not the best qualified for a position.” Id. This Court also rejected Plaintiff’s argument
that Mr. Tingey’s and Mr. Selvage’s asserted reason
for not recommending Plaintiff, the recent discharge
for poor performance, was a pretext for retaliation.
Id. On appeal the Tenth Circuit upheld this Court’s

App.47a
finding: “[B]oth Selvage and Tingey testified that
their decisions were based solely on Laul’s termination for poor performance. Laul identifies no evidence
that Selvage and Tingey did not honestly believe the
legitimate nondiscriminatory reason they gave for
their decisions or that they did not act in good faith
on their beliefs.” 714 F. App’x at 840.
In its Motion, LANS argues that this Court’s
and the Tenth Circuit’s holdings on that issue should
foreclose Plaintiff from arguing “that Mr. Tingey or
any other hiring manager’s determination not to
interview or hire Dr. Laul based on prior poor performance is not a legitimate, non-discriminatory and
non-retaliatory reason for such action.” (Mot. at 27.)
In response, Plaintiff argues he should be allowed to
argue that the hiring managers who refused to hire
him did not honestly believe in their proffered reasons
or did not act in good faith. In short, Plaintiff wants
to argue that if a hiring manager proffered Plaintiff’s
discharge as a reason for his rejection, Plaintiff should
be allowed to attack it as a pretext for discrimination
or retaliation. Plaintiff reasons that collateral estoppel
should not bar him from this argument because the
positions at issue in this case are different from the
positions for which he applied in Laul I.
In Laul I the Court decided that Messrs. Selvage
and Tingey had a legitimate, nondiscriminatory, nonretaliatory reason for not recommending that Plaintiff
be hired. The Court also decided that Plaintiff presented
no evidence that Messrs. Selvage and Tingey did not
act honestly or in good faith. The evidence in this
case shows that the only positions that Mr. Tingey
and Mr. Selvage were involved in were the two Safety
Basis Analyst positions (IRC 38516 and IRC 38573)

App.48a
submitted in April 2015. Because the issue is identical
and the parties are the same, the Court will preclude
Plaintiff from arguing that Messrs. Tingey and Selvage
were not acting honestly or in good faith in proffering
this legitimate reason for rejecting Plaintiff. However,
there is no evidence that the other hiring managers,
except Ms. Pacheco, were aware of Plaintiff’s discharge.
And those hiring managers and Ms. Pacheco have not
proffered the discharge as the reason Plaintiff was
not hired. Hence, the Court will only bar Plaintiff
from arguing that Messrs. Selvage and Tingey were
not honest or were not acting in good faith in proffering
Plaintiff’s discharge as their reason for not hiring
Plaintiff for the two Safety Basis postings. To show
pretext as to those positions, Plaintiff must present
additional evidence.
B. Counts I and II: Discriminatory Failure to
Hire13
Plaintiff has not come forward with any direct
evidence of LANS’ discriminatory intent; therefore,
the Court will analyze Plaintiff’s discriminatory failure
to hire claims using the McDonnell Douglas burdenshifting analysis. McDonnell Douglas Corp., 411 U.S.
13 Because Plaintiff uses the same evidence to support both age
and national origin discrimination, the Court will address the
failure to hire claims in Counts I and II together. Also, since
claims under the NMHRA are analyzed similarly to their federal counterparts, the Court will address Counts I and II under
the federal standards. Clayton v. Vanguard Car Rental U.S.A.,
Inc., 761 F. Supp. 2d 1210, 1249-50 (D.N.M. 2010) (noting that
the Supreme Court of New Mexico applies the framework established in McDonnell Douglas “[w]hen considering a violation of
the NMHRA.”) (quoting Juneau v. Intel Corp., 2006-NMSC-002,
¶ 9, 139 N.M. 12, 127 P.3d 548 (2005)).

App.49a
at 802-04. To establish a prima facie case of discriminatory failure to hire, “a plaintiff must show that
(1) he applied for an available position; (2) he was
qualified for the position; and (3) he was rejected
under circumstances which give rise to an inference
of unlawful discrimination.” Anaeme v. Diagnostek,
Inc., 164 F.3d 1275, 1278 (10th Cir. 1999). If Plaintiff
establishes a prima facie case, the burden shifts to
LANS to articulate some legitimate, nondiscriminatory reason for its action. McDonnell Douglas, 411
U.S. at 802. If LANS carries that burden, Plaintiff
can avoid summary judgment “by presenting evidence that the employer’s reason is pretextual, i.e.,
unworthy of belief or by otherwise introducing evidence of a discriminatory motive.” Danville v. Regional
Lab Corp., 292 F.3d 1246, 1250 (10th Cir. 2002) (citation omitted).
Pretext can be shown “by such weaknesses,
implausibilities, inconsistencies, incoherencies, or
contradictions in the employer’s proffered legitimate
reasons for its action that a reasonable factfinder
could rationally find them unworthy of credence and
hence infer that the employer did not act for the
asserted non-discriminatory reasons.” Morgan v. Hilti,
Inc., 108 F.3d 1319, 1323 (10th Cir. 1997) (quotation
omitted). In deciding if a plaintiff has made a sufficient
showing of pretext, the court “must consider the evidence as a whole.” Danville, 292 F.3d at 1250. Mere
allegations are insufficient, Morgan, 108 F.3d at 1324,
and “mere conjecture that [the] employer’s explanation is a pretext for intentional discrimination is an
insufficient basis for denial of summary judgment,”
Branson v. Price River Coal Co., 853 F.2d 768, 772
(10th Cir. 1988).

App.50a
At the summary judgment stage, the plaintiff’s
own conclusory opinions about his qualifications and
about the employer’s motives do not give rise to a
material factual dispute. Bullington v. United Air
Lines, 186 F.3d 1301, 1318 (10th Cir. 1999). The pertinent inquiry at this stage does not focus on whether
the employer’s “proffered reasons were wise, fair or
correct,” but looks at whether the employer “honestly
believed those reasons and acted in good faith on that
belief.” Id. (citation omitted). Importantly, in deciding
pretext, the courts are not to act as “super-personnel
departments” that second-guess employers’ business
judgments. Tyler v. RE/MAX Mountain States, Inc., 232
F.3d 808, 813-14 (10th Cir. 2000). “However, ‘[e]vidence
indicating that an employer misjudged an employee’s
performance or qualifications is, of course, relevant
to the question whether its stated reason is a pretext
masking prohibited discrimination.’” Id. at 814 (quoting
Fischbach v. District of Columbia Dept. of Corrections,
86 F.3d 1180, 1183 (D.C. Cir. 1996)).
1. Plaintiff’s Prima Facie Case
The Court finds that Plaintiff has presented sufficient evidence to meet the first element of a prima
facie case of age and national origin discrimination.
Plaintiff applied for several positions at LANS.
As to the second element, LANS argues that it
presented the testimony of hiring managers showing
that Plaintiff did not meet the minimum qualifications
for several of the 19 positions at issue.14 Therefore,
14 The Motion contains a chart illustrating that for 12 of the 19
positions, Plaintiff was rejected by the hiring manager because
he did not have the minimum qualifications for the position.
Actually the chart contains 13 positions, but regarding the position

App.51a
as to those positions, LANS argues Plaintiff fails to
meet the second element of his prima facie burden.
The 12 positions are: (1) Environmental Professional 3
(IRC 35849); (2) Environmental Professional 3 (IRC
35763); (3) Scientist 2/3 (IRC 37277); (4) Quality Assurance Engineer 4 (IRC 37672); (5) Quality Assurance
Engineer 4 (IRC 37732); (6) Criticality Safety Analyst
1/2 (IRC 37674); (7) Quality Assurance Specialist 2
(IRC 37678); (8) Quality Assurance Engineer 3/4 (IRC
37952); (9) Environmental Manager 3 (IRC 37809); (10)
Operations Manager 6 (IRC 38252); (11) Safety Basis
Analyst 3/4 (IRC 38573); and (12) Operations Support Specialist 4 (IRC 38692).
Plaintiff counters that he presented evidence sufficient to create a fact issue that he was qualified for all
19 of the positions. That evidence consists of Plaintiff’s
self-serving affidavit testimony. Plaintiff’s subjective
belief that he possessed the qualifications for these
positions is insufficient to create a fact issue capable
of overcoming summary judgment. Toney v. Cuomo,
92 F.Supp.2d 1186, 1192 (D. Kan. 2000) (stating that
plaintiff’s own opinions that he was more qualified
than the applicant chosen for a promotion did not give
rise to a material factual dispute that the proffered
reasons for not choosing plaintiff were pretexts for
discrimination). Although the Court believes that Plaintiff has failed to meet the second element regarding
the 12 positions, the Court will assume that the element
has been met and move to the third element and discuss
Plaintiff’s evidence as it relates to all 19 positions.

of Environmental Professional 3 (IRC 37521), the hiring manager
determined that Plaintiff was not the best qualified candidate.

App.52a
Plaintiff has failed to meet the third element of
his prima facie case of age or national origin discrimination. Plaintiff has presented no evidence, other
than his subjective belief, from which the Court can
reasonably infer that Plaintiff was not interviewed or
hired because of his age or national origin. In addition, each hiring manager testified that age and
national origin did not enter into their decisions not
to interview Plaintiff for the positions. For a complete
analysis, however, the Court will discuss the evidence
of pretext.
2. LANS’ Legitimate Reasons for Not Hiring
Plaintiff
For all of the positions except the positions over
which Tingey was hiring manager, the decision not to
hire Plaintiff was because Plaintiff lacked the minimum
qualifications for the position or Plaintiff was not the
best qualified applicant. With regard to Mr. Tingey’s
evaluation of Plaintiff for two positions, Safety Basis
Analyst 1/2 (IRC 38516) and Safety Basis Analyst 3/4
(IRC 38573), Mr. Tingey determined that Plaintiff
was not qualified based on “his past job performance”
in which Plaintiff “failed to demonstrate an ability to
successfully perform at the level” of either Safety
Basis Analyst 1/2 or 3/4. As discussed above, Plaintiff’s
past discharge for poor performance is a legitimate
reason for not hiring him. Therefore, LANS has
established legitimate nondiscriminatory reasons for
not hiring Plaintiff for all 19 positions: (1) Plaintiff
was not minimally qualified for some positions; (2)
Plaintiff was not the best qualified candidate for some
positions; and (3) Plaintiff was not qualified based on
his past job performance for the positions handled by
Mr. Tingey.

App.53a
3. Pretext
Since LANS has proffered a valid reason for not
hiring Plaintiff, Plaintiff must “present evidence that
that proffered reason he was not hired was pretextual,
i.e. unworthy of belief.” Beaird v. Seagate Tech., Inc.,
145 F.3d 1159, 1165 (10th Cir. 1998) (quotation marks
omitted). It is not enough that Plaintiff testified that
he was more qualified than each successful candidate
and that the candidates were younger and non-Indian.
See Anaeme, 164 F.3d at 1284 (“The mere failure to
hire Plaintiff as compared to other qualified nonAfrican-American candidates may not be sufficient to
establish an inference of race discrimination.”); Angione
v. Sikorsky Aircraft Corp., 199 F.Supp.3d 628, 639
(D. Conn. 2016) (“Standing alone, the fact that [defendant] may have hired someone who was younger than
[plaintiff] does not raise an inference of discrimination.”). LANS is entitled to select candidates based on
its notion of the qualifications required for a job as
long as the qualifications are not discriminatory. And
a claimant who argues that he is more qualified than
the chosen candidate must show there was a great
disparity in qualifications in order to create a fact
issue that this reason is a pretext for discrimination.
See Johnson v. Weld Cty., 594 F.3d 1202, 1211 (10th
Cir. 2010) (“[T]o suggest that an employer’s claim
that it hired someone else because of superior qualifications is pretext for discrimination rather than an
honestly (even if mistakenly) held belief, a plaintiff
must come forward with facts showing an overwhelming
disparity in qualifications.”). Plaintiff’s own testimony
that he was not chosen because he is 77 years old or
East Indian, is insufficient for this Court to find that
LANS’ reasons for not hiring Plaintiff were unworthy

App.54a
of belief. (See Mot. Ex. 2, Laul Dep. 478:7-11; 510:416; 699:11-701:10.) And Plaintiff’s argument that he
was more qualified than the applicants who were
hired does not support pretext because Plaintiff has
not shown that there was a great discrepancy between
Plaintiff’s qualifications and the successful candidates’
qualifications.
Plaintiff argues that he presented evidence of
pretext through Ms. Pacheco’s testimony that he “was
never going to be hired” at LANS after he was discharged. However, this argument mischaracterizes Ms.
Pacheco’s testimony. Ms. Pacheco testified:
Q.

Have you ever been involved in rehiring an
employee who had been fired for performance
issues?

A.

I’m going to say, yes. We had a reduction in
force. And several of those folks were on a—
based on performance. And that was in 1995.
And we did do some hiring of those employees—rehiring.

Q.

Associated with a RIF?

A.

Yes.

Q.

And my understanding is people that were—
maybe the low performers are the ones that
usually were on the list to go first, is that
correct, on a RIF?

A.

I’m not going to say which ones went where;
but, yeah, they were performance issues
usually.

App.55a
Q.

Okay. So you have had issues where—or situations where an employee who may be on
a RIF would be rehired later?

A.

Correct.

Q.

Have you ever had an employee in a situation like Dr. Laul where they were fired for
performance issues, who were rehired at the
Lab, that you are aware of?

A.

I have not, personally.

(Resp. Ex. D, Pacheco Dep. 44:19-45:18.) Instead of
saying that Plaintiff was never going to be rehired,
Ms. Pacheco simply testified that she personally had
never seen a person who was fired for poor performance
get rehired. Thus, Ms. Pacheco’s testimony cannot
support pretext.
As the Court found in Laul I, LANS’ decision to
discharge Plaintiff was not based on his age or national
origin; therefore, the fact that Plaintiff was discharged
for poor performance cannot be used as evidence of
pretext for rejecting Plaintiff in this case. Sengillo v.
Valeo Elec. Systems, Inc., 328 F. App’x 39, 41 (2d Cir.
2009) (unpublished) (finding that employer’s decision
not to rehire plaintiff who was terminated for poor
performance was a legitimate, non-discriminatory
reason for electing not to rehire the plaintiff); Mullen
v. Waterbury Board of Educ., No. 3:15-CV-00023
(VLB), 2017 WL 6060875, at *4 (D. Conn. Dec. 7, 2017)
(unpublished) (finding that poor performance at a
previous job was a legitimate, nondiscriminatory
reason for deciding not to hire an applicant); Wallace
v. Beech Aircraft Corp., 87 F. Supp. 2d 1138, 1149
(D. Kan. 2000) (finding that reasons for previous termination of employment, such as poor performance of

App.56a
job duties, were not pretext for discrimination in failure
to rehire plaintiff after plaintiff’s employment was
terminated). In sum, no rational factfinder could base
a finding of pretext on the evidence presented in this
summary judgment record. Wallace v. Beech Aircraft
Corp., 87 F. Supp. 2d at 1149.
The Court will grant summary judgment in favor
of LANS on Plaintiff’s Count I claim that he was
rejected for the 19 positions based on age discrimination
and on Plaintiff’s Count II claim that he was rejected
for the 19 positions based on national origin discrimination.
C. Count III: Retaliatory Failure to Hire
To establish a prima facie case of retaliation
under Title VII, a plaintiff must show that “(1) she
engaged in protected opposition to discrimination; (2)
she suffered an adverse action that a reasonable
employee would have found material; and (3) a causal
nexus exists between her opposition and the employer’s
adverse action.” Chung v. El Paso Cty./Colorado Springs
Sch. Dist. #11, 115 F. Supp. 3d 1242, 1260 (D. Colo.
2015), aff’d sub nom. Chung v. El Paso Sch. Dist. #11,
659 F. App’x 953 (10th Cir. 2016) (citations omitted).
Plaintiff has met the first two elements of his
prima facie case. As outlined in Laul I, Plaintiff
complained of discrimination through the grievances
in 2011 and 2012 and an email sent to Mr. Selvage
and Ms. Pacheco on November 13, 2013. See 2016 WL
9777256, at * 13-14. On January 5, 2014, Plaintiff sent
a letter to LANS’ Executive Director, Richard Marquez,
describing Mr. Selvage’s unwillingness to take certain
actions as “harassment and discriminatory practice.”
Plaintiff filed a charge of discrimination with the

App.57a
New Mexico Department of Labor, Human Rights Division on September 11, 2014 and he filed an amended
charge on October 30, 2014. All of these activities are
considered protected activities because Plaintiff opposed
unlawful discrimination. See Hinds v. Sprint/United
Mgmt. Co., 523 F.3d 1187, 1202-03 (10th Cir. 2008)
(finding certain emails did not constitute protected
activity because they were general complaints about
company management).
Plaintiff argues that his two encounters with
Ms. McMillan constitute protected activity because
he complained about his discriminatory discharge from
employment at LANS. However, Ms. McMillan testified
that Plaintiff merely complained that he had been
“unjustly terminated from his position.” (Mot. Ex. 17,
McMillan Decl. ¶ 6.) Plaintiff himself testified that he
only complained to Ms. McMillan about the process
related to his discharge. (Resp. Ex. I, Laul Dep. 120:
22-121:12.) Therefore, Plaintiff’s complaints to Ms.
McMillan are not protected activity. Hinds, 523 F.3d
at 1202-03.
To establish the third element Plaintiff must also
show that the persons responsible for hiring were
aware of his protected activities. However, most of
the hiring managers testified that they were unaware
of Plaintiff’s complaints of discrimination. Kendrick
v. Penske Transp. Servs., Inc., 220 F.3d 1220, 1235
(10th Cir. 2000) (affirming dismissal of retaliation claim
on summary judgment where plaintiff presented no
evidence that decision maker knew of plaintiff’s protected activity at time decision was made). Plaintiff
counters that there is a dispute as to whether the
hiring managers had knowledge of his protected
activity because “Defendant’s HR, who was aware of

App.58a
Plaintiff’s reports of discrimination, was in charge of
organizing the files for the hiring managers when
asked.” (Resp. at 33.) Plaintiff is merely speculating
that all of the hiring managers, in contravention of their
sworn testimony, had knowledge of his complaints
because they could have asked for his personnel file.
Hence, the evidence shows that all of the hiring
managers except Ms. Pacheco and Mr. Tingey were
unaware of Plaintiff’s complaints of discrimination.
Ms. Pacheco and Mr. Tingey handled the hiring
for three of the 19 positions. They testified that they
rejected Plaintiff based on his lack of qualifications or
based on his previous discharge for poor performance
and not because he complained about discrimination.
(Mot. Ex. 12, Pacheco Decl. ¶ 8; Ex. 13, Tingey Decl.
¶ 3(l).) Plaintiff argues that he has shown causation
by noting the close temporal proximity between the
date of his last protected activity and the dates he was
rejected by Mr. Tingey and Ms. Pacheco. The decisions
to hire for the positions managed by Ms. Pacheco and
Mr. Tingey happened in April 2015, which is 5 to 6
months after Plaintiff’s last protected activity on October 30, 2014. Under Tenth Circuit case law, a five to
six month gap between a protected activity and an
adverse employment action is too long to constitute
“close temporal proximity” and thereby raise the
inference of retaliation. See, e.g., Proctor v. United
Parcel Serv., 502 F.3d 1200, 1208 (10th Cir. 2007)
(“Four months is too large a time gap to establish a
causal connection.”); Haynes v. Level 3 Commc’ns,
LLC, 456 F.3d 1215 1228 (10th Cir. 2006) abrogated

on other grounds by Burlington N. & Santa Fe Ry. Co.
v. White, 548 U.S. 53, 68 (2006) (stating that seven

month period between protected activity and adverse

App.59a
employment action was not close enough in proximity
to establish causation element of prima facie retaliation claim); Anderson v. Coors Brewing Co., 181 F.3d
1171, 1179 (10th Cir. 1999) (“[A] three-month period,
standing alone, is insufficient to establish causation.”). Plaintiff further argues that the investigation
related to his October 30, 2014 amended charge
culminated several months later, narrowing the gap
in time. However, even if the Court takes that into
account and finds a prima facie case for the three
positions managed by Mr. Tingey and Ms. Pacheco,
Plaintiff has still failed to rebut the legitimate
reasons given for rejecting his applications.
Simply put, Plaintiff has not created a disputed
issue of material fact as to whether these proffered
reasons are “unworthy of belief.” Mr. Tingey testified
that he did not consider Plaintiff for the two Safety
Basis Analyst positions based on Plaintiff’s “past job
performance at LANL.” (Mot. Ex. 13, Tingey Decl.
¶ 3(c); (j).) Ms. Pacheco testified that Plaintiff lacked
sufficient management experience in the operation of
large nuclear and non-nuclear facilities. (Mot. Ex. 12,
Pacheco Decl. ¶ 5.) Plaintiff presents no evidence showing that these reasons are unworthy of credence. See
Sengillo, 328 F. App’x at 41 (unpublished) (upholding
dismissal of retaliatory failure to rehire claim based
on evidence that plaintiff was not rehired because he
was discharged from a position in another department for poor performance).
D. Retaliatory Issuance of the BOLO
Plaintiff also contends that his complaint to
Ms. McMillan about his unfair treatment at LANS
constituted protected activity. The Court has concluded

App.60a
that Plaintiff did not complain specifically about discrimination. However, even if Plaintiff did complain
about discrimination to Ms. McMillan, the evidence
clearly shows that the BOLO was issued because of
the inappropriate and threatening nature of Plaintiff’s
conduct in his encounters with Ms. McMillan. (Mot.
Ex. 19, Marquez Dep. 22:20-23:19.) And, there is no
evidence that members of the security department,
who issued the BOLO, knew about Plaintiff’s prior
complaints of discrimination. Therefore, Plaintiff has
failed to set forth evidence to support a finding that
the BOLO was issued in retaliation for his complaints
of discrimination.
IT IS ORDERED that DEFENDANT LOS
ALAMOS NATIONAL SECURITY, LLC’S MOTION
AND MEMORANDUM IN SUPPORT OF MOTION
FOR SUMMARY JUDGMENT (Doc. No. 58) is granted.
/s/ James A. Parker
Senior United States District Judge

App.61a
COMPLAINT FOR EMPLOYMENT
DISCRIMINATION AND RETALIATION
(SEPTEMBER 12, 2016)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
________________________
JAGDISH C. LAUL,

Plaintiff,
v.
LOS ALAMOS NATIONAL LABORATORIES,

Defendant.
________________________
No. 1:16-CV-01017
Jury Demanded
Plaintiff, by and through his attorney, The Gilpin
Law Firm, LLC, (Donald G. Gilpin) alleges and states:
Jurisdiction and Venue
1. This action is brought by Plaintiff to remedy
discrimination and retaliation in violation of the New
Mexico Human Rights Act, the ADEA and Title VII.
2. Plaintiff is a resident of Santa Fe County,
New Mexico.
3. Defendant, Los Alamos National Laboratories
is a foreign corporation licensed to transact business

App.62a
in New Mexico. Defendant is an employers within the
meaning of the New Mexico Human Rights Act and
Title VII.
4. Venue is proper because all the unlawful
practices complained of herein occurred within the
District of New Mexico. Plaintiff timely filed and exhausted his administrative remedies and received his
Notice of Right to Sue.
Allegations
5. Plaintiff began working for Defendant in 1999
as a Senior Safety Engineer (SBA-3). Plaintiff’s last
position with Defendant was as a Principal Safety
Engineer (SBA-4).
6. Plaintiff was born in India and became a US
citizen in 1974. Plaintiff is 77 years old.
7. Plaintiff has received dozens of awards, honors
and “kudos” while working for Defendant. Including
one award that is considered the highest honor for an
employee to receive.
8. Plaintiff was terminated by Defendant on
December 6, 2014 for alleged unsatisfactory work performance.
9. Plaintiff filed charges of discrimination and
retaliation with the New Mexico HRB on July 22, 2015.
10. After Plaintiff was terminated, Plaintiff was
informed in writing on January 2, 2014, that he could
still apply for positions with Defendant.
11. Defendant’s Policies state that an employee
is eligible for rehire if they have been terminated for
poor work performance and not terminated for misconduct.

App.63a
12. Plaintiff was not terminated for misconduct.
13. Plaintiff applied for 30 positions with Defendant from October 2014 to May 2015.
14. Defendant has not interviewed Plaintiff for
any of the positions.
15. Plaintiff is well qualified for all 30 positions
in which Plaintiff applied. Plaintiff has a strong educational background, excellent credentials, relevant
professional certifications, and approximately 38 years
of experience in various scientific disciplines.
16. It is Plaintiff’s good faith belief that Defendant
intentionally placed Plaintiff’s termination letter in
his Personnel file to prevent Plaintiff from receiving
interviews and job offers.
17. Defendant’s policy states that a termination
letter is to be kept in a former employees personnel
file for one year.
18. However, Defendant has still failed to remove
the termination letter from Plaintiff’s personnel file.
Further, Defendant has failed to place the January 2,
2014, letter stating Plaintiff is eligible for rehire.
19. Plaintiff discovered that his former second-line
supervisor told the hiring management not to interview
or hire Plaintiff.
20. Additionally, Defendant placed restrictions
on Plaintiff that would not allow him to receive an
access badge and banned Plaintiff from Defendant’s
premises for discussing his case with Los Alamos
National Laboratory employees.

App.64a
21. As a result from this unjustifiable action,
Independent Contractors who work on Defendant’s
premises declined to hire him for this sole reason.
22. As a result of the retaliatory acts of Defendant, Plaintiff has suffered harm in the form of lost
wages and benefits.
23. As a result of the retaliatory acts of Defendant, Plaintiff has suffered harm in the form of emotional distress. Plaintiff has incurred Attorney’s fees
including costs.
Count I. Age Discrimination
24. Plaintiff repeats and realleges each and every
allegation contained in all other paragraphs of this complaint with the same force and effect as if set forth
herein.
25. Defendant has discriminated against Plaintiff in the terms and conditions of his employment on
the basis of his age in violation of the New Mexico
Human Rights Act and the ADEA, on the basis of the
facts alleged above.
26. Plaintiff is now suffering and will continue
to suffer irreparable injury and monetary damages
as a result of Defendant’s discriminatory practices
unless and until this Court grants relief.
Count II. National Origin Discrimination
27. Plaintiff repeats and realleges each and every
allegation contained in all other paragraphs of this
complaint with the same force and effect as if set
forth herein.

App.65a
28. Defendant has discriminated against Plaintiff in the terms and conditions of his employment on
the basis of his national origin in violation of the
New Mexico Human Rights Act and Title VII, on the
basis of the facts alleged above.
29. Plaintiff is now suffering and will continue
to suffer irreparable injury and monetary damages
as a result of Defendant’s discriminatory practices
unless and until this Court grants relief.
Count III. Retaliation
30. Plaintiff repeats and realleges each and
every allegation contained in all other paragraphs of
this complaint with the same force and effect as if set
forth herein.
31. As alleged above, Plaintiff complained of
discrimination in the workplace.
32. Defendant has retaliated against Plaintiff in
the terms and conditions of his employment in
violation of the New Mexico Human Rights Act and
Title VII because of Plaintiff’s complaints of discrimination in the workplace.
33. Plaintiff is now suffering and will continue
to suffer irreparable injury and monetary damages
as a result of Defendant’s unlawful retaliatory practices unless and until this Court grants relief.
Jury Demand
34. Plaintiff requests a trial by jury.
WHEREFORE, Plaintiff respectfully requests
that this Court enter a judgment:

App.66a
(A) Awarding Plaintiff compensatory damages
that would make him whole for all earnings
he would have received but for Defendant’s
retaliatory treatment, including, but not
limited to, wages, pension, and other benefits;
(B) Awarding Plaintiff the costs for this action
together with reasonable attorney’s fees as
provided by the New Mexico Human Rights
Act, the ADEA and Title VII.
(C) Awarding Plaintiff compensatory damages
for his mental anguish and humiliation; and
(D) Granting such other and further relief as
this Court deems necessary and proper.
Respectfully submitted,
GILPIN LAW FIRM, LLC
/s/ Donald Gilpin
6100 Indian School Rd., NE
Ste. 201
Albuquerque, NM 87110-4180
Tel. (505) 244-3861
Fax (505) 254-0044

Attorney for Plaintiff

